         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report



       Framework for Developing
       Tribal Capacity Needed in the
       Indian General Assistance Program

       Report No. 08-P-0083

       February 19, 2008
Report Contributors:                             Janet Kasper
                                                 Melinda Burks
                                                 Darren Schorer
                                                 Khadija Walker
                                                 Madeline Mullen




Abbreviations

Act            Indian Environmental General Assistance Program Act of 1992
AIEO           American Indian Environmental Office
EPA            U.S. Environmental Protection Agency
FY             Fiscal Year
GAO            Government Accountability Office
GPRA           Government Performance and Results Act
IGAP           Indian General Assistance Program
IGMS           Integrated Grants Management System
OGD            Office of Grants and Debarment
OIG            Office of Inspector General
PO             Project Officer
TEA            Tribal Environmental Agreement




Cover photo:     EPA Tribal Portal logo (courtesy EPA)
                       U.S. Environmental Protection Agency 	                                               08-P-0083
                                                                                                     February 19, 2008
                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment

Why We Did This Review           Framework for Developing Tribal Capacity Needed
The objective of our audit was   in the Indian General Assistance Program
to determine whether the U.S.     What We Found
Environmental Protection
Agency’s (EPA’s) Indian          The purpose of IGAP grants is to help tribes develop environmental programs, and
General Assistance Program       over 70 percent of tribes have met at least one of EPA’s strategic goals for
(IGAP) has been effective in     improving human health and the environment in Indian country. However, only
developing tribal capacity to    12 percent of tribes are implementing Federal environmental programs.
implement environmental
programs. This work was          Many tribes have not developed long-term plans that describe how they will build
included in the Office of        environmental capacity to operate their environmental programs. For tribes that do
Inspector General’s (OIG’s)      have plans and long-term goals, EPA has not tracked progress against the plans
Fiscal Year 2007 annual plan     and goals. Six of 27 reviewed tribes that have received funding for more than 5
based on Agency leadership       years had activities limited to outreach, training, and meetings; how the activities
concerns regarding grant         will lead to implementing environmental programs is unclear. This situation has
results.                         occurred because EPA has not provided a framework for tribes to follow or adapt
                                 as they develop their capacity to implement environmental programs. As a result,
Background                       it is not clear whether IGAP funding will result in tribes being able to operate their
                                 own environmental programs. EPA has awarded $455 million in IGAP funds
The Indian Environmental         since 1992.
General Assistance Program
                                 EPA often uses the target funding level of $110,000 as the basis for IGAP funding
Act of 1992 provides EPA the
                                 instead of considering environmental capacity needs and prior progress. EPA and
authority to award grants to
                                 tribes consider IGAP funding to be essential continuing support for tribal
Indian tribal governments to
                                 environmental programs. When the funding is not based on tribal capacity needs
build capacity to administer
                                 or priorities, EPA cannot demonstrate that the highest human health and
environmental programs.
                                 environmental needs are addressed.
Since its inception, IGAP has
become a core program and         What We Recommend
the largest single source of
funding for tribal               We recommend that the Assistant Administrator for Water:
environmental programs, with     •	 Require the American Indian Environmental Office to develop and implement
almost $455 million of               an overall framework for achieving capacity, including valid performance
funding to about 500 different       measures for each type of tribal entity, and provide assistance to the regions
tribal entities since 1992.          for incorporating the framework into the IGAP work plans.
                                 •	 Require regions to (a) negotiate with tribes to develop environmental plans
For further information,             that reflect intermediate and long-term goals, (b) link those plans to annual
contact our Office of
Congressional and Public
                                     IGAP work plans, and (c) measure tribal progress in meeting plans and goals.
Liaison at (202) 566-2391.       •	 Revise how IGAP funding is distributed to tribes to place more emphasis on
                                     tribes’ prior progress, environmental capacity needs, and long-term goals.
To view the full report,         EPA concurred with the recommendations and stated that the American Indian
click on the following link:
www.epa.gov/oig/reports/2008/
                                 Environmental Office is committed to evaluating the IGAP program and
20080219-08-P-0083.pdf           incorporating new ways to improve the program’s effectiveness.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                        February 19, 2008

MEMORANDUM

SUBJECT:	              Framework for Developing Tribal Capacity Needed in the
                       Indian General Assistance Program
                       Report No. 08-P-0083


FROM:	                 Melissa M. Heist
                       Assistant Inspector General for Audit

TO:                    Benjamin Grumbles
                       Assistant Administrator, Office of Water


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. It represents the
opinion of the OIG and does not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $470,169.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective action plan for agreed upon
actions, including specific activities and milestone dates. We have no objections to the further
release of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Janet Kasper,
Director, Assistance Agreement Audits, at 312-886-3059 or kasper.janet@epa.gov.
                      Framework for Developing Tribal Capacity Needed in the 

                              Indian General Assistance Program 




                                Table of Contents 


Chapters
 1    Introduction ...........................................................................................................      1


              Purpose ..........................................................................................................    1         

              Background ....................................................................................................       1         

              Noteworthy Achievements..............................................................................                 3         

              Scope and Methodology.................................................................................                4


 2    Progress Toward Long-Term Goals Is Not Demonstrated ................................                                          5


              GPRA and EPA Require Consideration of Environmental Results ................                                          5

              Progress Toward Capacity Goals Is Not Demonstrated.................................                                   6

              Some Tribes’ Activities Limited Mostly to Training, Meetings, 

                 and Outreach.............................................................................................          6

              EPA Has Not Provided Tribes a Framework Linked to Work Plans ...............                                          7

              Without Plan for Achieving Capacity, Eligibility of Activities
                 May Not Be Clear ......................................................................................            8

              Conclusion......................................................................................................      9         

              Recommendations .........................................................................................             9         

              Agency Response and OIG Comment ..........................................................                           10 


 3    Need Not Always a Determining Factor in IGAP Funding Decisions ...............                                               11     


              EPA Goal is to Help Every Tribe Establish an Environmental Presence........                                          11 

              Many Tribes Are Awarded the Target Level of Funding .................................                                11 

              Some Tribes Are Not Developing Capacity in New Areas..............................                                   12 

              Well-Developed Programs Continue to Use IGAP .........................................                               12 

              EPA and Tribes Expect IGAP to Provide Essential Continuing Support ........                                          13 

              Funding May Not Be Provided for Highest Priorities ......................................                            13 

              Recommendation ...........................................................................................           14         

              Agency Response and OIG Comment ..........................................................                           14 


 Status of Recommendations and Potential Monetary Benefits.................................                                        15     




Appendices
 A    IGAP Legislative Authority and EPA Strategic Goals ......................................                                    16     


 B    Details on Scope, Methodology, and Prior Audit Coverage .............................                                        17     


 C    IGAP Logic Model..................................................................................................           20     



                                                         - continued -
                    Framework for Developing Tribal Capacity Needed in the
                            Indian General Assistance Program



D   Eligible Activities under IGAP..............................................................................               21   


E   IGAP Funding Formula ........................................................................................              23   


F   EPA Grant Funds for Tribal Programs ...............................................................                        24   


G   Agency Response ................................................................................................           25   


H   Distribution ...........................................................................................................   27   

                                              Chapter 1
                                               Introduction

Purpose
                    The objective of our audit was to determine whether the U.S. Environmental
                    Protection Agency’s (EPA’s) Indian General Assistance Program (IGAP) has been
                    effective in developing tribal capacity to implement environmental programs. In
                    particular, we focused on the following areas:

                    •   Funding distribution to regions and tribes
                    •   Goals and measures used to evaluate progress under IGAP
                    •   Effectiveness of IGAP in developing tribal environmental capacity

                    This work was included in Office of Inspector General’s (OIG’s) Fiscal Year (FY)
                    2007 annual plan based on Agency leadership concerns regarding grant results.

Background
                    The Indian Environmental General Assistance Program Act of 1992 (the Act)
                    provides EPA the authority to award grants to Indian tribal governments to build
                    capacity to administer environmental programs.1 The Act also provides for
                    technical assistance from EPA in developing multimedia programs to address
                    environmental issues on Indian lands. Beyond capacity building, the only
                    allowable implementation activities are for solid and hazardous waste. Since its
                    inception 15 years ago, IGAP has become the largest single source of funding for
                    tribal environmental programs. Since 1992, EPA has awarded $455 million in
                    IGAP funding; during FY 2004 through FY 2006, IGAP provided almost
                    $115 million of funding to about 400 different tribal entities.

                    Under the Act, IGAP grants can be awarded to both Indian tribal governments and
                    intertribal consortia. The Act defines an Indian tribal government as any Indian
                    tribe, band, nation, or other organized group or community (including any Alaska
                    Native village or regional or village corporation) which is recognized as eligible
                    for the special services provided by the United States to Indians because of their
                    status as Indians. Some tribes have jurisdiction over land and some do not. The
                    Act defines intertribal consortia as a partnership between two or more Indian
                    tribal governments authorized by the governing bodies of those tribes to apply for
                    and receive IGAP assistance.



1
    Build capacity refers to the tribe developing the ability to implement and manage environmental programs.

                                                           1

EPA issued IGAP guidelines in 1994 to provide national policy guidance and
criteria for awarding and administering IGAP grants. EPA updated the guidelines
in 2000 and 2006 to address compliance with grant policies, accountability for
environmental results, and consistency with program requirements. The purpose
of IGAP is to establish administrative, legal, technical, and enforcement
capability needed to implement an environmental protection program. Details on
the legislative authority for IGAP and program goals are included in Appendix A.

Sovereignty and the Federal Trust Responsibility to Tribes

According to Federal Indian Law, tribes in the United States are Sovereign
Nations. Sovereignty is the right or power that comes from itself and no other
source that a government draws upon to govern. The courts have reasoned that
because of tribes’ existence since time immemorial, prior to the inception of the
other U.S. sovereigns, tribes must derive their authority to govern from their own
sovereignty.

The Federal Government has a trust responsibility to federally recognized tribes
that arises from Indian treaties, statutes, executive orders, and the historical
relations between the United States and tribes. Like other Federal agencies, EPA
must act in accordance with the trust responsibility when taking actions that affect
tribes. The trust responsibility provides that the Federal Government consult with
and consider the interests of the tribes when taking actions that may affect tribes
or their resources. EPA places high importance on its trust responsibility to
tribes. Consequently, EPA desires to give tribes maximum flexibility in IGAP to
determine their own environmental needs, goals, and priorities.

EPA Headquarters and Regions Have Roles in IGAP Management

EPA's American Indian Environmental Office (AIEO) under the Office of Water,
the Office of Grants and Debarment (OGD), and the regions all have roles in
managing IGAP:

•	 AIEO plays a significant role in EPA’s overall tribal program, which includes
   IGAP. AIEO coordinates the Agency-wide effort to strengthen public health
   and environmental protection in Indian country, with a special emphasis on
   building capacity to administer tribal environmental programs. AIEO
   oversees developing and implementing the Agency's Indian Policy. AIEO
   also strives to ensure that all EPA Headquarters and regional offices
   implement their parts of the Agency's Indian Program in a manner consistent
   with Administration policy. The policy is to work with tribes on a
   government-to-government basis according to EPA's trust responsibility to
   protect tribal health and environments. AIEO is the National Program
   Manager for IGAP, and is responsible for allocating IGAP funding to regions.




                                 2

                  •	 OGD oversees implementing EPA's long-term Grants Management Plan to
                     ensure that these funds are used efficiently and effectively.

                  •	 Regions are responsible for administering IGAP grants, approving work
                     plans, awarding grants, and monitoring progress under IGAP.

Noteworthy Achievements
                  IGAP has been successful in assisting tribes in addressing environmental issues
                  on tribal lands. Over 70 percent of tribes have met at least one of EPA’s strategic
                  goals for tribes. EPA staff place high importance on IGAP for developing
                  environmental capacity in Indian country. Representatives from tribal
                  organizations emphasize the necessity of IGAP and the lack of other resources to
                  support environmental work. Tribes are clearly conducting environmental work
                  and identifying environmental issues on Indian lands. Agency staff believe IGAP
                  is a necessary component and lays the foundation for EPA’s overall tribal
                  program. We have noted several tribal environmental success stories, such as
                  recycling and solid waste programs, that we highlighted in a prior joint review
                  report with the Department of the Interior OIG.2

                  IGAP is helping tribes to expand their sources of environmental funding. EPA
                  requested a contractor to conduct an evaluation of IGAP. The evaluation,
                  completed in May 2007, found that long-term IGAP recipients have received a
                  greater percentage of their funding from non-IGAP EPA sources than more recent
                  IGAP recipients. According to the evaluation, this supported the view that IGAP
                  had expanded the sources of funding for tribes.

                  Overall, we found that IGAP grants are supported by budgets, work plans, and
                  progress reports. The program is generally compliant with grant regulations.
                  Although we did not focus on compliance issues during this audit, we did note
                  certain accomplishments in IGAP grant oversight. Some regions demonstrated
                  that they took environmental needs into consideration in funding tribes. Some
                  regions also showed greater oversight of grant funding. During our review of
                  grant files, we noticed examples of good grants oversight. Project Officers (POs)
                  documented site visits, provided telephone guidance regarding IGAP activities,
                  and compared work plans to accomplishments in order to evaluate progress. For
                  example:

                  •	 In at least one case where a significant purchase occurred under the IGAP
                     grant, documentation in the file showed correspondence between the PO and
                     the tribe regarding justifying the purchase.

                  •	 In some cases, work plan comments from the PO to the tribe requested that
                     the tribe change work plan items or provide clarification or justification. For

2
    EPA OIG Report No. 2007-P-00022, Promoting Tribal Success in EPA Programs, May 3, 2007.

                                                      3

            example, one work plan comment requested that the tribe explain why the
            specific training topics were necessary because the same training from the
            previous 2 years had been included again.

         •	 The grant files contained end-of-year review reports which summarized the
            progress made by the tribe and whether the required deliverables were
            completed on time.

Scope and Methodology
         We performed our audit in accordance with generally accepted government
         auditing standards, issued by the Comptroller General of the United States.
         We conducted our audit field work from March to July 2007. We gathered
         information and conducted field work at EPA Headquarters and Regions 5, 6, 9,
         and 10. We collected and analyzed data for a sample of 30 IGAP grants active
         during FY 2006 from the four regions. See Appendix B for further details on the
         audit scope and methodology.




                                         4

                              Chapter 2
           Progress Toward Long-Term Goals
                 Is Not Demonstrated

         Many tribes have not developed long-term plans that describe how they will build
         environmental capacity to operate their environmental programs. For 8 of 30
         tribes that do have plans and long-term goals, EPA has not tracked progress
         against the plans and goals. Six of 27 reviewed tribes that have received funding
         for more than 5 years had activities limited to outreach, training, and meetings;
         how the activities will lead to implementing environmental programs is unclear.
         This situation has occurred because EPA has not provided a framework for tribes
         to follow or adapt as they develop their capacity to implement environmental
         programs. EPA has awarded $455 million in IGAP funds since 1992. It is not
         clear whether IGAP funding will result in tribes being able to operate their own
         environmental programs.

GPRA and EPA Require Consideration of Environmental Results
         The 1993 Government Performance and Results Act (GPRA) requires that EPA
         develop strategic plans for environmental objectives and measure progress against
         those objectives. EPA has developed a strategic plan, orders, and policies that
         aim to ensure environmental results are being measured through grant
         agreements, work plans, and program office oversight.

         EPA's 2006-2011 Strategic Plan and 2003-2008 Grants Management Plan require
         program offices to include consideration of environmental outcomes in grant
         work plans and to link activities to measurable outcomes. EPA’s Environmental
         Results Order 5700.7 states that to the maximum extent practicable, Agency staff
         should:

         •	 Link proposed assistance agreements to the Agency’s Strategic Plan and
            GPRA;
         •	 Ensure that outputs and outcomes are appropriately addressed in assistance
            agreement competitive funding announcements, work plans, and performance
            reports; and
         •	 Consider how the results from completed assistance agreement projects
            contribute to the Agency’s programmatic goals and objectives.

         AIEO’s IGAP guidance provides policy guidelines and criteria for IGAP grants.
         The 2006 guidance includes templates for work plans and reporting
         environmental results. These templates are intended to provide consistency in


                                         5

          reporting on milestones, deliverables, environmental outcomes, and outputs.
          They also provide a link to EPA’s Strategic Plan.

          The 2006 guidance also includes a logic model that provides an outline of the
          resources, activities, outputs, and intended short-term, intermediate, and long-
          term outcomes of IGAP grants. The logic model identifies that the short-term
          outcomes from IGAP grants include increased understanding of the process
          needed to develop environmental programs. Intermediate outcomes include
          increased tribal capabilities in legal, enforcement, technical, communication, and
          administrative areas. Long-term outcomes include established capacity to plan,
          develop, implement, manage and sustain tribal environmental programs.
          According to the logic model, the ultimate result should be improved
          environmental and public health conditions in Indian country. See Appendix C
          for the complete IGAP logic model.

Progress Toward Capacity Goals Is Not Demonstrated
          Many tribes have not developed long-term plans that describe how they will build
          environmental capacity to operate their environmental programs. Through IGAP,
          EPA’s focus has been on short-term activities and outputs in the annual work
          plans, such as training and outreach, rather than long-term environmental results
          as described in the IGAP logic model. For 8 of 30 tribes in our sample that did
          have long-term plans, EPA was not tracking progress against goals. For example:

          •	 A tribe with 1,200 members has been receiving IGAP funding for 10 years.
             The tribe has developed a Tribal Environmental Agreement (TEA) that states
             environmental objectives and intended environmental results over time.
             However, EPA has not been tracking progress against the objectives stated in
             the TEA.

          •	 A tribe with 4,000 members has been receiving IGAP funding for 8 years.
             The tribe has a TEA that identifies funding needs for FY 2007 to 2009.
             However, EPA has not been tracking progress for the TEA objectives.

          •	 A tribe with 150 members has been receiving IGAP funding for 9 years. EPA
             required the tribe to complete an environmental plan in 2001, but the plan was
             not subsequently tracked.

Some Tribes’ Activities Limited Mostly to Training, Meetings, and
Outreach
          When tribes do not have long-term goals or plans with milestone dates, EPA is
          not assured that the activities will lead to the tribe having the capacity to
          implement environmental programs. AIEO contracted an independent evaluation
          of IGAP in order to determine how effective IGAP has been in building tribal
          environmental capacity. According to the evaluation, long-term IGAP recipients

                                           6

          have not achieved a greater number of indicators of environmental capacity than
          more recent IGAP recipients. We found that 27 of 30 tribes reviewed have
          received IGAP grants for at least 5 years. Of those 27 tribes, 6 were still
          performing activities limited mostly to outreach, training, meetings, and
          assessments. It was not clear how the tribes would achieve the capacity to
          implement environmental programs. For example:

          •	 One tribe, according to its 2006 work plan, was primarily conducting
             outreach, training, and meetings after 9 years of IGAP funding. The tribe has
             identified areas in which to develop programs. However, it is not clear how
             the tribe is going to get the funding and develop the capacity to implement the
             environmental programs.

          •	 Another tribe has established little more than an environmental presence after
             9 years of IGAP funding. The tribe’s work plan primarily consisted of
             meetings, data collections, studies, and research. Since the tribe has no land,
             eligibility for implementing an EPA-delegable program is unlikely.

          •	 A tribe with 63 acres has received IGAP funds over the last 6 years, but has
             shown little progress in establishing long-term goals that would lead toward
             achieving capacity. The tribe’s work plan indicates that it primarily conducts
             environmental outreach and training. The tribe has not identified any long-
             range goals or significant environmental issues to address.

EPA Has Not Provided Tribes a Framework Linked to Work Plans
          EPA has not provided a framework for tribes to follow or adapt on the path
          toward capacity to administer environmental programs. In the past, the Agency
          advocated the use of TEAs that point tribes toward long-term goals. However,
          the TEAs were not consistently implemented nationally and did not specify
          milestones. As an alternative to TEAs, one region worked with tribes to develop
          environmental plans, but did not track their progress or link them to annual work
          plans.

          In 1994, EPA developed TEAs to, among other purposes:

          •	 Provide an understanding of tribal environmental need;
          •	 Identify the areas under which each tribe intends to assume program
             responsibility; and
          •	 Build environmental capacity in order for tribes to operate programs in the
             long term.

          Using TEAs presented two major problems. First, EPA never implemented these
          agreements on a national basis, partly because many tribes viewed these
          agreements negatively. According to EPA staff, they reminded tribal members of
          historical treaties that had negative results. Second, the TEAs did not capture

                                           7

           milestones because EPA media-specific program offices were reluctant to make
           specific funding or timeframe commitments. As a result, tribes understood that
           TEAs do not result in any additional environmental program funding.

           According to Office of Management and Budget Circular A-123, effective
           internal control provides assurance that significant weaknesses in the design or
           operation of internal control that could adversely affect the Agency’s ability to
           meet its objectives would be prevented or detected in a timely manner. An
           effective internal control for IGAP would be establishing a framework that
           considers all possible outcomes for the program. The framework would include
           measurable goals that can be tracked and for which tribes can be held
           accountable. AIEO recently initiated a framework by developing the logic model,
           but it does not address which outcomes are appropriate for various recipient types.
           For example, consortia and tribes without jurisdiction over land cannot achieve
           many of the long-term goals in the logic model.

           EPA could incorporate TEAs into an overall framework for achieving capacity.
           With beneficial changes to the process and the agreements themselves, these
           documents can serve as a useful IGAP management tool. They can also provide
           each tribe with its own unique roadmap, or plan, for achieving environmental
           capacity.

Without Plan for Achieving Capacity, Eligibility of Activities
May Not Be Clear
           Agency guidance identifies what activities are eligible for funding under IGAP.
           For some grants, no clear linkage exists showing how the activities will lead to
           establishing an environmental program. We found that even the tribes which had
           made efforts at environmental planning had not updated their plans as activities
           were completed, had not tracked progress toward plan goals, and did not link
           annual work plans to tribal environmental plans. Without established plans
           linking the work plan activities to long-term goals, it was not clear whether the
           activities were eligible or appropriate for funding under IGAP. IGAP guidance
           specifies that eligible activities include those conducted for planning, developing,
           or establishing an environmental protection program. See Appendix D for a
           general list of eligible activities outlined in the guidance.

           For some tribes, it was not clear whether the work plan activities conducted fell
           within the IGAP guidance list of eligible activities. For example:

           •	 One consortium has received IGAP over the last 9 years, and it was not clear
              whether some of its work plan activities were eligible according to the
              guidelines. One objective that may not be eligible or appropriate for IGAP
              funding is a project for eco-tourism development. The consortium assisted a
              tribe by developing a business plan, seeking other grants in the area of
              eco-tourism, and developing a tourism Website. The work plan mentions

                                             8

               expanding and diversifying the local economy. In our opinion, this activity is
               more related to economic development than environmental capacity building.

         •	 One tribe has received IGAP funds for 2 years, and it was not clear whether
            some of its activities were eligible, such as testing for global warming. The
            tribe’s global warming activities included taking and recording the
            temperature four times a week. Since this is a global issue and the tribe is a
            seasonal fish camp of about 40 members, it is unclear how random
            temperature taking for a limited duration each year will lead to a meaningful
            environmental program. In our opinion, these activities do not appear to be
            contributing to capacity development. The tribe did not have a plan for how
            the global warming activities would build capacity to implement an
            environmental program.

Conclusion
         The link between the $455 million in IGAP funds awarded since 1992 on the
         ability of tribes as a whole to administer their own environmental programs is not
         clear when evaluating program performance. EPA has not provided a framework
         for tribes to follow or adapt on the path toward capacity to administer
         environmental programs. None of the 30 tribes we reviewed had environmental
         plans with milestones and long-term goals that were tracked, even though almost
         half of the tribes had been participating for at least 10 years. If tribes do not have
         workable plans with milestones, they may not proceed in a clear direction.
         Consequently, for some of the activities pursued with IGAP funds, it was not
         clear how the activities will lead to establishing an environmental program.
         Further, without plans linking the activities to long-term goals, it was not clear
         whether the activities were eligible or appropriate for funding under IGAP.

Recommendations
         We recommend that the Assistant Administrator for Water:

         2-1      Require AIEO to develop and implement an overall framework for
                  achieving capacity, including valid performance measures for each type of
                  tribal entity, and provide assistance to the regions for incorporating the
                  framework into the IGAP work plans.

         2-2      Require regions to:

                  a. Negotiate with tribes to develop environmental plans that reflect
                     intermediate and long-term goals.
                  b. Link those plans to annual IGAP work plans.
                  c. Measure tribal progress in meeting plans and goals.




                                            9

Agency Response and OIG Comment
        In response to the draft report, EPA stated that AIEO is committed to evaluating
        the IGAP program and incorporating new ways to improve the program’s
        effectiveness without compromising the flexibility provided to tribes. EPA stated
        that relating IGAP funding to long-term and interim goals against which progress
        can be measured is very important and AIEO plans to address the issue. Since the
        negotiating goals, measuring and assessing progress against those goals, and
        evaluating funding requests are inextricably linked, EPA must address the issues
        in an overall programmatic response.

        The Agency concurred with our recommendations and plans to implement them
        during FY 2008 and FY 2009 through developing a comprehensive IGAP
        framework document that includes negotiation of tribal plans with long-term and
        interim goals and a method of measuring progress. The IGAP framework will be
        implemented in FY 2010.

        The planned actions will address the recommendations. In responding to the final
        report, the Agency needs to identify specific activities and milestone dates for
        implementing the corrective action. The Agency’s complete response is in
        Appendix G.




                                        10

                                Chapter 3
        Need Not Always a Determining Factor in
               IGAP Funding Decisions

          EPA often uses the target funding level of $110,000 as the basis for IGAP funding
          instead of considering environmental capacity needs and prior progress. EPA and
          tribes expect IGAP funding will be available as essential continuing support for
          tribal environmental programs. Not all tribes require the target level of funding
          each year. Many tribes with highly developed environmental programs still rely
          on IGAP to maintain their environmental presence and pursue other Federal
          grants. EPA needs to revise how it distributes IGAP funding in order to place
          more emphasis on tribes’ prior progress, environmental capacity needs, and long-
          term goals.

EPA Goal is to Help Every Tribe Establish an Environmental Presence
          EPA’s objective for tribes, according to the 2006-2011 EPA Strategic Plan, is to

                 …protect human health and the environment on tribal lands by
                 assisting federally recognized tribes to build environmental
                 management capacity, assess environmental conditions and
                 measure results, and implement environmental programs in Indian
                 country.

          EPA considers IGAP to be a major component for achieving this objective.
          Although the Act does not require that EPA provide funding to all tribes, the
          Strategic Plan states that EPA’s “goal is to help every federally recognized tribe
          establish an environmental presence.”

          The Act provides grants to Indian tribal governments to build capacity to
          administer environmental programs. The Act requires that each grant awarded for
          a fiscal year shall be no less than $75,000. The Act does not specify how EPA is
          to distribute IGAP funds and does not require funding for all tribes. However,
          EPA believes the statutory minimum is not sufficient to run an environmental
          program. Therefore, EPA developed a target funding level of $110,000 for IGAP
          based on its estimate of what it would take to sustain a basic program.

Many Tribes Are Awarded the Target Level of Funding
          In some regions, many tribes are routinely awarded the target amount of $110,000
          per year regardless of population, land area, or environmental issues. For two of
          four regions we visited, as many as 60 percent of tribes received within $5,000 of

                                           11

          the annual target amount. Nine of the 30 reviewed tribes were funded within
          $5,000 of the annual target amount, for IGAP grants that were open during 2006.
          Thus, small and large tribes both received similar funding amounts. For example:

          •	 A small, landless fish camp of 40 seasonal residents has received $110,000 in
             IGAP funding each year since the start of the project period in FY 2005. The
             tribe has achieved some success in establishing a solid waste program but has
             not identified issues in other areas.

          •	 In contrast, a tribe with 1,200 members and 16,000 acres has also received
             about $110,000 per year in GAP funding. The tribe has also been awarded
             approximately $2 million in EPA media-specific funding to address
             environmental issues such as clean water, clean air, and emergency response.
             The tribe has demonstrated the capacity to plan, develop, implement, and
             manage environmental programs.

Some Tribes Are Not Developing Capacity in New Areas
          We found 9 tribes of the 30 reviewed had made progress in some areas, but work
          plans had not documented new environmental issues to address, despite receiving
          IGAP funding for several years. These tribes continued to receive IGAP funding
          with similar activities from year to year; it was difficult to determine what the
          tribe was trying to accomplish or what environmental issues it was addressing.
          For example:

          •	 One tribe with approximately 4,000 members and 500,000 acres has received
             IGAP funding since 1994. The tribe has also been awarded about $990,000 in
             funding from EPA media-specific programs. The tribe provides some
             oversight and technical assistance for specific remediation projects using
             IGAP. For the current grant, work plan activities do not vary much from year
             to year.

          •	 A tribe with 6 acres has received funding for 6 years for its 63 members, and
             has not identified environmental issues except for land that has yet to be
             acquired. Work plans showed the same expenses and activities from year to
             year. The tribe does not appear to be developing or finding new issues to
             address.

Well-Developed Programs Continue to Use IGAP
          Tribes that have had success in developing capacity still rely on IGAP to sustain
          and maintain their environmental presence because of challenges in obtaining
          funding. Even the largest and most developed tribes in the Nation still rely on
          IGAP funding. For example:



                                          12

                   •	 A tribe with over 3,000 members has been receiving IGAP funding for 14
                      years and has achieved Treatment in the Same Manner as State for Clean Air
                      Act Title V and Clean Water Act Section 303. Despite demonstrating
                      capacity in air and water media, the tribe continues to use IGAP to perform
                      activities such as programmatic and administrative functions and tribal
                      outreach.

                   •	 A tribe with 5,000 members on 544,000 acres has received IGAP funding for
                      11 years and has achieved Treatment in the Same Manner as State for Clean
                      Air Act Title V. Tribal staff is highly capable and the program is well-
                      developed. The tribe continues to use IGAP to maintain existing programs
                      and to perform additional assessments, meetings, and training.

EPA and Tribes Expect IGAP to Provide Essential Continuing Support
                   EPA and tribes expect that IGAP funding will be available as essential continuing
                   support for tribal environmental programs. The Agency allocates funding to the
                   regions according to the 1997 funding formula. The regional share of the IGAP
                   allocation is based on the number of federally recognized tribes, the tribal
                   population, and the tribal acres in each region. The Agency also calculates a
                   ceiling amount for each region consisting of the number of tribes per region
                   multiplied by $110,000. Refer to Appendix E for details on the funding formula.

                   The regions have discretion as they use the funding allocations to determine
                   funding for individual tribes. Generally, regions believe that $110,000 is the
                   minimum funding necessary for establishing an environmental presence. That
                   amount provides a presence by funding one-and-a-quarter positions as well as
                   office costs, training, travel, equipment, and indirect costs. EPA believes it is
                   important for each tribe to have an environmental staff person in an office. That
                   person is then available to answer the phone and have a “seat at the table” to
                   address environmental concerns.

                   According to Agency staff, tribes rely upon IGAP because it is a consistent and
                   reliable source of funding, and the only tool available to build environmental
                   capacity. It is the largest single source of funding for tribal environmental
                   programs EPA awarded, as shown in Appendix F. A 2007 OIG report
                   recommended that EPA work with tribes to identify economic resources and
                   funding alternatives.3

Funding May Not Be Provided for Highest Priorities
                   The Agency uses the $110,000 cap in its allocation to the regions in an effort to
                   equitably fund all tribes. This is despite the fact that the number of tribes
                   participating in IGAP has increased significantly since 1997, and tribes have

3
    EPA OIG report No. 2007-P-00022, Promoting Tribal Success in EPA Programs, May 3, 2007.

                                                      13

        differing land bases, populations, and environmental needs. The expectation of a
        target level of funding for all tribes has resulted in tribes with well-developed
        programs continuing to get funding each year. Meanwhile, tribes with less-
        developed programs may need more than $110,000 per year. EPA Headquarters
        uses tribal population and land area to estimate need when allocating funding to
        the regions. However, regions do not consistently allocate funding based on the
        needs of individual tribes. When the funding is not based on tribal capacity needs
        or priorities, EPA cannot demonstrate that the highest human health and
        environmental needs are addressed.

Recommendation
        We recommend that the Assistant Administrator for Water:

        3-1 	   Revise how IGAP funding is distributed to tribes in order to place more
                emphasis on tribes’ prior progress, environmental capacity needs, and
                long-term goals.

Agency Response and OIG Comment
        In response to the draft report, EPA stated that adjustments to the funding
        formula, allocations, distributions, and award decisions will be developed in
        FY 2010 and implemented in FY 2011.

        The planned actions will address the recommendation. In responding to the final
        report, the Agency needs to identify specific activities and milestone dates for
        implementing the corrective action. The Agency’s complete response is in
        Appendix G.




                                        14

                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                  Planned
    Rec.    Page                                                                                                 Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1        Action Official           Date      Amount      Amount

    2-1       9     Require AIEO to develop and implement an overall         O         Assistant Administrator    FY 2010
                    framework for achieving capacity, including valid                         for Water
                    performance measures for each type of tribal
                    entity, and provide assistance to the regions for
                    incorporating the framework into the IGAP work
                    plans.

    2-2       9     Require regions to:                                      O         Assistant Administrator    FY 2010
                    a. Negotiate with tribes to develop environmental                         for Water
                    plans that reflect intermediate and long-term goals.
                    b. Link those plans to annual IGAP work plans.
                    c. Measure tribal progress in meeting plans and
                    goals.

    3-1      14     Revise how IGAP funding is distributed to tribes in      O         Assistant Administrator    FY 2011
                    order to place more emphasis on tribes’ prior                             for Water
                    progress, environmental capacity needs, and long-
                    term goals.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 15

                                                                                   Appendix A

                    IGAP Legislative Authority and 

                        EPA Strategic Goals 

Legislative Authority

The Indian Environmental General Assistance Program Act of 1992 (Act) provides the legal
authority for EPA to award IGAP grants and specifies what can be funded through the grants.
We relied upon the language in the law when evaluating how EPA and tribes were using IGAP
funds. The purpose of the Act, as it relates to grants, is to:

       Provide general assistance grants to Indian tribal governments and intertribal
       consortia to build capacity to administer environmental regulatory programs that
       may be delegated by the Environmental Protection Agency on Indian lands.

The law does not limit grant funds only to developing regulatory programs that may be
delegated. Grant funds may cover:

       …the costs of planning, developing, and establishing environmental protection
       programs consistent with other applicable provisions of law providing for
       enforcement of such laws by Indian tribes on Indian lands.

       …planning, developing, and establishing the capability to implement programs
       administered by the Environmental Protection Agency and specified in the
       assistance agreement.

While much of the Act focuses on developing the capacity to implement programs, the Act does
allow IGAP funds to be used for implementing solid and hazardous waste programs on Indian
lands.

EPA Strategic Goals

One of EPA’s objectives in the 2006-2011 Strategic Plan is to improve human health and the
environment in Indian country, as shown below.

       1.	 By 2011, increase the percentage of tribes implementing Federal environmental
           programs in Indian country to 9 percent (FY 2005 baseline: 5 percent of 572 tribes).

       2.	 By 2011, increase the percentage of tribes conducting EPA approved environmental
           monitoring and assessment activities in Indian country to 26 percent (FY 2005
           baseline: 20 percent of 572 tribes).

       3.	 By 2011, increase the percentage of tribes with an environmental program to
           67 percent (FY 2005 baseline: 54 percent of 572 tribes).


                                               16

                                                                                      Appendix B

                 Details on Scope, Methodology, and 

                         Prior Audit Coverage 

Scope and Methodology

We conducted field work in Headquarters and Regions 5, 6, 9, and 10. We interviewed AIEO
and OGD staff in Headquarters and tribal program staff in the four regions. Interviews of AIEO
staff consisted of questions related to the following areas: background of IGAP grants, IGAP
grant funding, goals and measures, and capacity. Interviews of OGD staff consisted of questions
related to management activities for IGAP grants. Interviews of regional staff consisted of
questions related to the following areas: IGAP grant funding, goals and measures, and capacity.
We also interviewed three tribal umbrella organizations to obtain their perspectives of IGAP and
its effectiveness in achieving tribal capacity. We reviewed various guidance documents and
reports relevant to our objective, and financial records provided by AIEO.

We used data from EPA’s Integrated Grants Management System (IGMS) to determine the
universe of tribal IGAP recipients, to gather background information, and to prepare for grant
file reviews. We did not test the controls over IGMS to ensure its validity and reliability, as the
information it contained was not significant to our conclusions. Specifically, we analyzed the
IGMS data to:

•	   Determine the universe of IGAP grantees,
•	   Determine how much IGAP funding a tribe has received,
•	   Determine how long a tribe has received IGAP grants,
•	   Extract and analyze IGAP grants active in FY 2006, and
•	   Select a representative sample of 30 IGAP grants active during FY 2006 from the four
     regions.

In selecting the sample to review, we considered:

•	 The dollar amount of the awards for IGAP grants active during FY 2006 and the dollar
   amount of awards since the inception of IGAP. Generally, we selected tribes with high
   dollar awards, as well as those reflecting a range of dollar values.

•	 The amount of time the tribe has been receiving IGAP. We wanted to include tribes that
   have been receiving IGAP grants for an extended period, as well as tribes that may have only
   recently begun receiving IGAP funding.

•	 The number of grants awarded from EPA programs other than IGAP.

Grants selected included a range of award amounts and project periods. We also tried to include
grantees that had a significant number of EPA grants from other environmental programs. The


                                                 17

following shows a breakout of our sample of 30 IGAP grants from the four regions, out of a total
of 476 active grants during FY 2006:

•	   4 grants selected from Region 5
•	   8 grants selected from Region 6
•	   8 grants selected from Region 9
•	   10 grants selected from Region 10

We reviewed grant documents for our sample online and requested needed hard copy grant files
from the four regions. We reviewed and analyzed work plans, progress reports, and other
relevant documents. We consulted with the grant POs as necessary regarding any questions that
arose based on our grant file reviews. Because we selected judgmental samples of grants from
the four regions, we are not projecting the results to the universe of IGAP grants. Our findings
and conclusions were based on review and evaluation of grant file documentation and discussion
with EPA staff.

We obtained an understanding of management controls for the 5.3 Reporting System and
analyzed data from the system regarding results. (The 5.3 Reporting System is a tool for
reporting on progress toward meeting commitments under EPA's 2003-2008 Strategic Plan.
Objective 5.3 is to build tribal capacity.) We discussed the 5.3 Reporting System with AIEO to
understand the controls over the system. We tested the reliability of the data as part of our grant
file reviews. We verified data posted to the system with information from the grant files and
discussion with the POs. We assessed the reliability of the system in accordance with
Government Accountability Office (GAO) guidance, GAO 03-273G, Assessing the Reliability of
Computer-Processed Data, dated October 2002. We did not note any material weaknesses in
internal controls related to data in the 5.3 Reporting System, and consider the data to be
sufficiently reliable for the purposes of this audit.

Prior Audit Coverage

We reviewed the prior EPA OIG and GAO reports listed below that were relevant to our audit
for background purposes. For those reports that were significant within the context of our audit
objectives, we performed followup as necessary.

•	 EPA OIG Report No. 2001-M-000018, Grants Management, Region 10’s General
   Assistance Program, July 17, 2001. OIG found that improvements are needed in evaluating
   costs in applications to ensure: they are allowable, allocable, and reasonable; that work plans
   meet eligibility requirements; and that post-award monitoring activities are adequate. The
   OIG recommended that the Region 10 Regional Administrator ensure that POs with IGAP
   assistance agreement responsibilities approve for award only those work plans that include
   outputs and milestones for all work activities.

•	 Joint EPA-Department of the Interior Report, Tribal Successes: Protecting the
   Environment and Natural Resources, May 2007. This report highlighted the diversity of
   innovative tribal practices that will serve as models of success to other tribes in implementing
   natural resource and environmental programs. The report notes that successful

                                                18

   implementation of environmental and natural resource projects directly results from
   innovative practices that overcome barriers such as resource limitations, administrative and
   managerial requirements, legal and regulatory issues, and communication and relationships.

•	 EPA OIG Report No. 2007-P-00022, Promoting Tribal Success in EPA Programs,
   May 3, 2007. OIG found tribes have made progress in overcoming barriers to successful
   management of environmental programs. Innovation is the key for tribes to maximize the
   effectiveness of their programs. The 14 tribes visited provided examples of innovative
   practices, including collaboration and partnerships, education and outreach, and expanding
   resources. OIG recommended that EPA help tribes in the above three areas to further assist
   tribes build on successful practices.




                                              19

20

                                                                                      Appendix D

                       Eligible Activities Under IGAP
AIEO’s Guidelines on the Award and Management of General Assistance Agreements for Indian
Tribes, dated March 9, 2000, provide a general list of eligible activities. Activities have to be for
planning, developing, or establishing an environmental protection program. See below for a list
of eligible activities.

Develop an administrative system to include:

•	 Proposals for other environmental grants.
•	 Procedures for accounting, auditing, evaluating, reviewing, and reporting in compliance with
   Federal regulations.
•	 Computer systems and Internet service for grant management.
•	 Procurement procedures in compliance with Federal regulations.

Develop technical capability to manage environmental programs, including:

•	 Identifying and performing a baseline assessment of sources of pollution.
•	 Developing quality assurance and quality control systems including Quality Assurance
   Project Plans. (Implementing a Quality Assurance Project Plan is not fundable under IGAP,
   except when a Quality Assurance Project Plan is required to carry out activities approved in
   the IGAP grant work plan.)
•	 Developing adequate sampling and laboratory capabilities, including purchasing equipment.
•	 Developing computer systems and providing Internet service for comparing and evaluating
   environmental data.
•	 Developing qualifications and training needs for environmental management personnel.
   (Training may be for conducting inspections, environmental assessments, and monitoring and
   National Environmental Policy Act analyses.)
•	 Developing integrated approaches to environmental protection and natural resource
   management, such as developing Integrated Resource Management Plans
•	 Developing legal infrastructure (codes, regulations, ordinances, etc).
•	 Developing enforcement programs.
•	 Developing a communications plan.
•	 Developing materials, information, and plans for environmental education/public outreach.
•	 Identifying multi-jurisdictional opportunities.

Other activities:

•	 Construction: Generally not allowable but may be approved by the National Program
   Manager, AIEO, on a case-by-case basis. For example, the tribe may need office facilities to
   work.
•	 Vehicle purchase: IGAP funds may be used to lease or purchase a vehicle. The grantee must
   provide justification in the work plan. After lease or purchase of vehicle, the grantee must

                                                 21

     keep usage records to ensure it is reasonable and necessary to carry out the IGAP grant
     activities.
•	   Geographic Information Systems: Allowable but use for surveying a commercial purchase of
     land or in support of current litigation are not activities that are allowable.
•	   Implementing solid waste and hazardous waste programs: These were not previously
     allowable, but the Final Rule (codified at Title 40, Code of Federal Regulations, section
     35.545, January 2001) allows implementation activities.
•	   Planning, designing, and constructing a wastewater treatment facility or drinking water
     facility: Not Allowable.
•	   Developing programs to manage and oversee wastewater treatment or drinking water
     facilities: Allowable.
•	   Planning, developing, or establishing environmental programs not regulated by EPA:
     Allowable in accordance with Federal regulations.
•	   Baseline environmental assessments and monitoring: Allowable if necessary to plan,
     develop or establish a tribal environmental program. Not allowable if done for the principal
     purpose of solving a particular problem at a particular place.
•	   Developing a system of permitting or licensing fees: Allowable.
•	   Preparing program eligibility application packages: Allowable.
•	   Conducting demonstration projects: Allowable if purpose is to plan, develop, or establish a
     tribal environmental program.




                                                22

23

                                                                                  Appendix F

                EPA Grant Funds for Tribal Programs
Even if tribes develop capability to manage well-established environmental programs, the
continuing funding needed to maintain and implement environmental programs is limited and not
guaranteed. EPA provides media-specific funding to tribes through 31 grant programs.
However, tribes face many challenges in accessing these funds. Tribes often are not able to meet
the minimum requirements, such as Treatment in the Same Manner as State delegation, to be
eligible for funds. Tribes may also have difficulty in providing the required matching funds.
IGAP is the largest tribal grant program funded by EPA, and the 2007 allocation provided
$56.7 million to 436 tribes. The next largest programs are Clean Water Act Section 106 and
Clean Air Section 103, as shown in Table 4.1.

Table 4-1: EPA Fiscal Year 2007 Program Funding for Tribes

                                                               Number       Percentage
Program Name                                    Amount
                                                               of Tribes     of Funds
IGAP                                          $56,654,000        436             40

Water Pollution Control (106)                 $23,197,906        163             16

Air 103 Grants (Evaluation/ Monitoring)       $14,139,556         83             10

NPS Implementation                             $9,822,263         77             7

Superfund Cooperative Agreement                $5,802,899         25             4

Environmental Network Grants                   $5,215,383         38             4

Targeted Watershed Initiative (104(b)3)        $5,018,520         6              4

Water Infrastructure                           $4,503,477         9              3

Brownfields                                    $4,060,637         18             3

Air Pollution Control Program Support          $3,811,865         15             3

SDW Management                                 $2,538,590         34             2

UST Program                                    $2,459,229         21             2

Pesticide Program Development                  $2,114,074         15             1

Wetlands Protection Grants                     $1,786,017         19             1

Total                                         $141,124,416

Source: AIEO




                                              24

                                                                                     Appendix G

                                 Agency Response
                                           JAN 15 2008

MEMORANDUM

SUBJECT:       Response to the Office of Inspector General Draft Report “Framework for
               Developing Tribal Capacity Needed in Indian General Assistance Program”
               (Assignment No. 2007-539)

FROM:          Benjamin H. Grumbles
               Assistant Administrator

TO:            Bill A. Roderick
               Deputy Inspector General

       We appreciate the attention and effort that the Office of Inspector General (OIG) has
brought to the Indian General Assistance Program (GAP). As you know, GAP is the cornerstone
program in EPA’s efforts to develop environmental protection programs across Indian country.
We continue to be committed to evaluating the GAP program and incorporating new ways to
improve the program’s effectiveness without compromising the flexibility provided to tribes
when established by Congress.

        We believe the draft report’s findings correctly identify several areas that have received
continuing emphasis by EPA’s American Indian Environmental Office (AIEO) and the EPA
tribal program. The critical importance of relating GAP funding to long-term and interim goals
against which progress can be measured is a shared concern that we plan to address. The
negotiation of goals by tribes and EPA, the measurement and assessment of progress against
those goals, and EPA’s evaluation of funding requests are all inextricably linked. As a result, it
is essential that these issues be addressed in an overall programmatic response, rather than as
isolated actions.

        Effectively steering a foundational program such as GAP through any significant change
will require a considerable time and resource commitment from both EPA headquarters and
regional offices. And, of course, it will be necessary to uphold all Agency tribal consultation
obligations as we move forward. The attached outline of our plan to move forward in improving
the GAP program will address our mutual goals in an integrated, consultative fashion. I look
forward to reporting progress on these efforts.

Attachment

cc: 	   Carol Jorgensen, Director, AIEO
        Janet Kasper, Director, Assistance Agreement Audits, OIG


                                                25

GAP IMPROVEMENT PLAN OUTLINE

•	 FY 08/09:
   Develop comprehensive GAP framework document anticipated to include the following
   components:
     -Standardized online workplan process and documentation 

     -Method to ensure negotiation of tribal plans with long-term and interim goals, 

     -Method to allow measurement of tribal progress toward meeting plan goals, 

     -Revision of the 2000 GAP Guidelines to comport with the framework, 

     -Approach to assist tribes in environmental planning. 


•	 FY 10:
      Implement revised GAP Guidance program aspects.
      Develop adjustments to funding formula, allocations, distributions, and award
      decisions as appropriate based on the revised GAP Guidance.

•	 FY 11 et seq:
     Institute provisions of revised GAP Guidance as a basis for program activities
     and award decisions.




                                           26

                                                                            Appendix H

                                    Distribution
Office of the Administrator
Assistant Administrator for Water
Assistant Administrator for Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
Director, Office of Regional Operations
Director, Grants and Interagency Agreements Management Division
Audit Followup Coordinator, Office of Water
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Deputy Inspector General




                                             27

